March 30, 2007

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA

GUY J. COTTRELL
INSPECTOR IN CHARGE, WASHINGTON DIVISION

KEITH A. FIXEL
INSPECTOR IN CHARGE, CHARLOTTE DIVISION


SUBJECT: Audit Report – Postal Service Security Controls and Processes for the
         Capital Metro Area (Report Number SA-AR-07-002)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
security controls and processes for the Capital Metro Area (Project Number
06YG034SA000). Our objective was to determine whether the Postal Service and
Postal Inspection Service had sufficient controls and processes in place to efficiently
and effectively protect employees, customers, the mail, and critical assets of the Postal
Service. We will issue subsequent reports on our audits in other postal areas. We also
plan to review Postal Inspection Service security operations, including security
assessment tools the Postal Service and the Postal Inspection Service use.

The Postal Service and the Postal Inspection Service have opportunities to improve
security controls and processes to more effectively and efficiently protect employees,
customers, the mail, and critical assets. For example, responsible security personnel
did not always conduct Facility Security Surveys accurately or annually as required. We
made five recommendations to management at both the Postal Inspection Service and
the Postal Service to improve security controls and processes to enhance employee
awareness, accountability, and overall collaboration.

Management agreed with recommendations 1 through 4 and their corrective actions,
taken or planned, are responsive to our recommendations and should correct the issues
identified in the findings.
Management partially agreed with recommendation 5 to develop appropriate
performance measures for physical security to assess the achievement of security goals
and incorporate them into performance plans for area-, district-, and field-level security
personnel. Management stated they recognized the need for program evaluation and
have established program standards to address performance. However, the Postal
Service’s current Pay for Performance structure only permits security performance
measures for the Area Security Coordinator and not for ad hoc security positions at the
district- and field-levels.

Management’s comments and corrective actions, taken or planned, are partially
responsive to recommendation 5. We acknowledge there may be limits in assigning
goals and objectives in the Postal Service’s current Pay for Performance structure.
However, these limitations should not be a complete barrier to establishing individual
performance measures for security personnel. Management should seek alternative
methods to establishing individual security performance measures and accountability for
responsible district- and field-level security personnel. We do not plan to pursue
recommendation 5 through the formal audit resolution process. Management’s
comments and our evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Andrea L.
Deadwyler, Director, Inspection Service and Facilities, or me at (703) 248-2100.
 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI



Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Lawrence Katz
    Juliana Nedd
    Orin M. Wilson
    Michele L. Culp
    Deborah A. Kendall
Postal Service Security Controls and                                     SA-AR-07-002
 Processes for the Capital Metro Area


                                    TABLE OF CONTENTS
 Executive Summary                                                                       i

 Part I

 Introduction                                                                            1

     Background                                                                         1
     Objective, Scope, and Methodology                                                  2
     Prior Audit Coverage                                                               4

 Part II

 Audit Results                                                                           5

     Opportunities Exist to Improve Security Controls and Processes                      5

      Facility Security Surveys                                                         5
       Recommendations                                                                  6
       Management’s Comments                                                            7
       Evaluation of Management’s Comments                                              7

      Corrective Action on Security Deficiencies and Follow-up Reviews                  8
       Recommendation                                                                   9
       Management’s Comments                                                            9
       Evaluation of Management’s Comments                                              9

      Training                                                                           9
       Recommendation                                                                   11
       Management’s comments                                                            11
       Evaluation of Management’s Comments                                              11

      Performance Measures                                                              11
       Recommendation                                                                   12
       Management’s comments                                                            12
       Evaluation of Management’s Comments                                              13

 Appendix A. Capital Metro Area Facilities                                              14

 Appendix B. Status of Facility Security Surveys                                        16

 Appendix C. Management’s Comments                                                      18
Postal Service Security Controls and                                          SA-AR-07-002
 Processes for the Capital Metro Area


                                    EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our self-initiated audit of
                                the U.S. Postal Service’s security controls and processes.
                                Our objective was to determine whether the Postal Service
                                and Postal Inspection Service had sufficient controls and
                                processes in place to efficiently and effectively protect
                                employees, customers, the mail, and critical assets of the
                                Postal Service. This report addresses our audit results in
                                the Capital Metro Area. We will issue subsequent reports
                                regarding our audit results in other postal areas. We also
                                plan to review Postal Inspection Service security operations,
                                including security assessment tools used by the Postal
                                Service and the Postal Inspection Service.

 Results in Brief               The Postal Service and the Postal Inspection Service have
                                opportunities to improve security controls and processes to
                                effectively and efficiently protect employees, customers, the
                                mail, and critical assets. Specifically, Postal Service and
                                Postal Inspection Service management could strengthen
                                controls to enhance employee awareness, accountability,
                                and overall collaboration. For example:

                                •   Responsible security personnel did not always conduct
                                    Facility Security Surveys (FSS) accurately and annually
                                    as required.

                                •   Management did not always sufficiently address and
                                    resolve deficiencies identified during security
                                    assessments.

                                •   Sixty-seven percent of responsible security personnel
                                    interviewed did not have security control officer (SCO)
                                    training.

                                •   Postal Service management did not effectively assess
                                    security operations to identify areas for improvement.




                                                 i
Postal Service Security Controls and                                          SA-AR-07-002
 Processes for the Capital Metro Area




 Summary of                     We recommend the Chief Postal Inspector:
 Recommendations
                                •   Provide the Area Security Coordinator (ASC) and district
                                    and facility SCOs with consolidated standard operating
                                    procedures and guidance to assist them in performing
                                    their duties and responsibilities consistently and in a
                                    timely manner.

                                •   Establish a formal process for conducting FSSs,
                                    including timeframes for addressing deficiencies and
                                    follow-up reviews.

                                •   Establish requirements for mandatory security training,
                                    including periodic refresher training, for responsible
                                    security personnel at the area-, district-, and facility-
                                    levels.

                                We also recommend the Vice President, Capital Metro
                                Area, in consultation with the Inspector in Charge, Charlotte
                                Division, and the Inspector in Charge, Washington Division:

                                •   Require area- and district-level personnel to implement
                                    internal controls, such as an internal review and
                                    approval process, to ensure that security personnel
                                    complete FSSs accurately and in a timely manner.

                                •   Develop performance measures to assess the
                                    achievement of security goals.

 Summary of                     Management agreed with recommendations 1 through 4
 Management’s                   and stated the following:
 Comments
                                • The Chief Postal Inspector will issue official instruction,
                                  regulation, and guidance in the Postal Service’s
                                  Administrative Support Manual. Additionally, the
                                  network of security personnel in the Inspection Service,
                                  areas, and districts will reinforce these procedures to
                                  provide guidance that is more consistent.

                                • Management established requirements for completing
                                  FSSs in a timely manner. Management has also
                                  established additional procedures for monitoring,
                                  reviewing, and reporting status of FSSs.




                                                  ii
Postal Service Security Controls and                                          SA-AR-07-002
 Processes for the Capital Metro Area



                                •   Management plans to establish a process to include a
                                    reasonable timeframe for addressing deficiencies and
                                    conducting follow-up reviews.

                                •   Management plans to establish requirements for annual
                                    training.

                                Management partially agreed with recommendation 5 and
                                stated they recognized the need for program evaluation and
                                have established program standards to address
                                performance. However, the Postal Service’s current Pay for
                                Performance structure only permits security performance
                                measures for the ASC and not for ad hoc security positions
                                at the district- and field-levels. The Postal Service’s current
                                Pay for Performance structure limits managers in assigning
                                goals and allows only three objectives as performance
                                measures per position. Because many of the security
                                positions at the districts and facilities are ad hoc, goals and
                                objectives assigned focus on primary duties and not ad hoc
                                duties related to security. Management’s comments, in their
                                entirety, are included in Appendix C of this report.

 Overall Evaluation of          Management’s comments and corrective actions, taken or
 Management’s                   planned, are responsive to recommendations 1 through 4
 Comments                       and should correct the issues identified in the findings.

                                Management’s comments and planned corrective actions
                                are partially responsive to recommendation 5. We
                                acknowledge there may be limits to the type of goals and
                                the number of objectives allowed in the Postal Service’s
                                current Pay for Performance structure. However, we
                                believe management could make the necessary
                                adjustments to their Pay for Performance system to allow
                                for the establishment of security-related performance
                                measures for security personnel. We do not plan to pursue
                                this recommendation through the formal audit resolution
                                process based on the revisions the Postal Service is
                                currently making to the field security program. We believe
                                these changes should allow for improved internal controls.




                                                 iii
Postal Service Security Controls and                                                               SA-AR-07-002
 Processes for the Capital Metro Area


                                           INTRODUCTION
 Background                       Postal Inspection Service. The Chief Postal Inspector is the
                                  chief security officer for the Postal Service. The Postal
                                  Inspection Service is the security arm of the Postal Service
                                  and is responsible for protecting an estimated 800,000
                                  postal employees and approximately 38,000 facilities
                                  nationwide. The Postal Inspection Service also protects the
                                  mail, postal assets, and millions of postal customers, and
                                  provides training and guidance to Postal Service security
                                  personnel.

                                  The Postal Inspection Service uses various tools and
                                  processes to assess and ensure the physical security of
                                  Postal Service employees and assets. The tools and
                                  processes include Facility Security Surveys (FSS), Facility
                                  Risk Rating Model (FRRM), and Observation of Mail
                                  Conditions (OMC). Our audit focused on the FSS.1

                                  Facility Security Surveys. The objectives of FSSs are to
                                  determine, through on-site inspection and evaluation,
                                  current facility status and to recommend actions to improve
                                  security. The FSS, which must be completed annually, is
                                  an in-depth checklist of 273 yes-or-no questions covering
                                  physical security areas such as access controls, closed
                                  circuit televisions (CCTV), key controls, and Registered
                                  Mail™ cages. Responsible security officials in the Postal
                                  Inspection Service and the Postal Service, including postal
                                  inspectors and security control officers (SCO), complete the
                                  FSSs.2

                                  Postal Service. The Postal Service, an independent
                                  establishment of the executive branch of the U.S.
                                  government, operates like a business and generates $70
                                  billion in revenue annually.3 Under the Postal
                                  Reorganization Act, the Postal Service is required to provide
                                  prompt, reliable, and efficient service to patrons in all areas
                                  and to render postal services to all communities. In fiscal
                                  year (FY) 2005, the Postal Service processed and delivered
                                  over 200 billion pieces of mail.


1
  We will review the FRRM and the OMC program in a separate report on Postal Inspection Service security
operations and assessment tools.
2
  The FSS is an Inspection Service tool. However, FSSs are conducted primarily by Postal Service SCOs.
3
  United States Postal Service Annual Report 2005.




                                                        1
Postal Service Security Controls and                                                 SA-AR-07-002
 Processes for the Capital Metro Area



                                The Postal Service faces a variety of security challenges
                                that require aggressive investigative and preventive
                                responses. Its ability to protect employees, customers, and
                                the mail is fundamental to ensuring high-quality, reliable
                                service. In addition, all Postal Service employees are
                                responsible for preventing unauthorized individuals from
                                entering restricted areas. To help manage physical security
                                concerns, each area has an Area Security Coordinator
                                (ASC), each district has a District Security Control Officer
                                (DSCO), and each Postal Service facility has an SCO.

                                •   The ASC in the Capital Metro Area, a full-time position,
                                    manages the establishment of the area and district
                                    security committees and oversees security programs
                                    and committees to ensure effectiveness and compliance
                                    with regulations. The ASC also manages the SCO
                                    program, provides guidance, and serves as the liaison
                                    between the area, district, and plants for SCO-related
                                    matters.

                                •   DSCOs in the Capital Metro Area manage the overall
                                    district security program; serve as liaison with the Postal
                                    Inspection Service; manage compliance with security
                                    policies and procedures, including FSSs; and provide
                                    security guidance to management. The DSCO is
                                    generally a collateral position assigned to the district
                                    manager for emergency preparedness.

                                •   Facility SCOs serve as the focal point for addressing
                                    security concerns, help implement security policies, and
                                    coordinate with the Postal Inspection Service on security
                                    matters. The SCO is also a collateral position and is
                                    usually the installation head or a designated manager or
                                    supervisor. The SCO is required to conduct an FSS
                                    annually.

 Objective, Scope, and          Our objective was to determine whether the Postal Service
 Methodology                    and Postal Inspection Service had sufficient controls and
                                processes to efficiently and effectively protect postal
                                employees, customers, the mail, and critical assets of the
                                Postal Service.

                                To accomplish our objective, we interviewed Postal Service
                                and Postal Inspection Service officials, including officials



                                                  2
Postal Service Security Controls and                                                                SA-AR-07-002
 Processes for the Capital Metro Area


                                   from the Office of Emergency Preparedness, the ASC for
                                   the Capital Metro Area, DSCOs, SCOs, and installation
                                   heads. We also interviewed Inspectors in Charge, team
                                   leaders, inspectors, and program managers. Additionally,
                                   we reviewed applicable policies and procedures related to
                                   Postal Service and Postal Inspection Service physical
                                   security, including Homeland Security Presidential
                                   Directives 7 and 12.

                                   We judgmentally sampled Postal Service facilities in the
                                   Capital Metro Area to conduct audit fieldwork. We reviewed
                                   security operations and controls at the selected facilities.
                                   We selected facilities based on square footage, Crimes
                                   Against Persons and Property (CAP) index,4 and the
                                   number of employees at each facility. Our sample included
                                   47 Postal Service facilities (see Appendix A) in the Capital
                                   Metro Area, including facilities in the District of Columbia,
                                   Maryland, North Carolina, South Carolina, and Virginia. We
                                   also conducted fieldwork at Postal Inspection Service
                                   headquarters, National Law Enforcement Control Center,
                                   and the Washington and Charlotte Divisions.

                                   We analyzed FSSs and Area Security Assessment Program
                                   (ASAP) reviews conducted at selected facilities for calendar
                                   years 2005 and 2006 to determine whether they were
                                   completed as required and whether management
                                   appropriately addressed the deficiencies identified. We also
                                   reviewed training records from the National Training
                                   Database (NTD) to determine whether key security
                                   personnel received sufficient physical security training and
                                   guidance to efficiently and effectively protect employees,
                                   customers, and Postal Service assets.

                                   We tested and validated computer-generated data from the
                                   Facility Security Database (FSD), ASAP database, and NTD
                                   system by comparing data obtained from these databases
                                   with other source documents, observing facility conditions,
                                   and discussing the data with appropriate Postal Service
                                   officials. We consider the data sufficiently reliable to
                                   support the opinions and conclusions in this report.

                                   We conducted this audit from May 2006 through March
                                   2007 in accordance with generally accepted government
4
 The CAP index is a commercially available database the Postal Inspection Service uses to assess risk to Postal
Service property from external elements.




                                                         3
Postal Service Security Controls and                                                 SA-AR-07-002
 Processes for the Capital Metro Area


                                auditing standards and included such tests of internal
                                controls as we considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with management officials on November 28 and
                                December 12, 2006 and included their comments where
                                appropriate.

 Prior Audit Coverage           The Government Accountability Office (GAO) report, U.S.
                                Postal Service: Physical Security Measures Have
                                Increased at Some Core Facilities, But Security Problems
                                Continue (Report Number GAO-05-48, dated November
                                2004), concluded the Postal Service had established
                                physical security requirements, such as access control and
                                exterior lighting, necessary for core facilities to address the
                                threats of robberies, burglaries, theft, and vandalism.

                                Additionally, implementation of security measures had
                                increased at some facilities, although security problems still
                                existed at some core facilities. However, incomplete and
                                inaccurate data precluded GAO from assessing changes in
                                the implementation of security measures at core facilities.
                                Specifically, the Postal Service’s FSD had a number of
                                problems, such as missing and incomplete data, duplicate
                                responses, and miscoded facilities. Further, GAO’s visits to
                                13 core facilities revealed a number of security problems,
                                including facility keys unaccounted for, unlocked doors,
                                deactivated alarms, and employees not wearing
                                identification badges.

                                GAO recommended and management agreed to develop a
                                plan, with objectives, timeframes, and resources needed, to
                                correct and update the Postal Service’s FSD so that
                                management can accurately assess the status of physical
                                security at core facilities, identify needed improvements,
                                and assess the progress made at facilities.




                                                 4
Postal Service Security Controls and                                                                 SA-AR-07-002
 Processes for the Capital Metro Area


                                            AUDIT RESULTS
    Opportunities Exist to           Capital Metro Area management has opportunities to improve
    Improve Security                 security controls and processes to effectively and efficiently
    Controls and                     protect employees, customers, the mail, and critical assets.
    Processes                        Specifically, management could strengthen controls to
                                     enhance employee awareness, accountability, and overall
                                     collaboration. For example:

                                     •    Responsible security personnel did not always conduct
                                          FSSs accurately and annually as required.

                                     •    Management did not always take sufficient action to
                                          correct deficiencies identified during FSSs.

                                     •    Sixty-seven percent of responsible security personnel
                                          interviewed did not have any SCO-related training.

                                     •    Postal Service management did not effectively assess
                                          security operations to identify areas for improvement.

    Facility Security                Responsible security personnel did not always complete FSSs
    Surveys                          accurately or annually, as required by the Postal Service’s
                                     Administrative Support Manual.5 This occurred because
                                     Postal Inspection Service management did not establish
                                     consolidated standard operating procedures and guidance to
                                     assist security officials in performing their duties and
                                     responsibilities. Also, Postal Service management did not
                                     implement appropriate internal and management controls to
                                     ensure responsible personnel followed policies and
                                     procedures. When security personnel do not conduct FSSs
                                     accurately and at least annually, as required, Postal Service
                                     employees, customers, the mail, and other critical assets are
                                     exposed to increased risk. Additionally, the Postal Service did
                                     not take advantage of the opportunity to mitigate risks that
                                     accurate and timely FSSs would identify.

                                     Accuracy of FSSs. FSSs were not completed accurately at 23
                                     percent (11 of 47) of the facilities reviewed. For example:




5
  The Postal Service’s Administrative Support Manual 13 (dated July 1999 and updated with Postal Bulletin revisions
through December 22, 2005) requires SCOs or designees to conduct annual FSSs.




                                                         5
Postal Service Security Controls and                                                          SA-AR-07-002
 Processes for the Capital Metro Area




                                   •    A facility SCO answered “yes” to a question regarding
                                        perimeter fencing when there was no perimeter fencing at
                                        the facility.

                                   •    A facility SCO answered “no” to a question regarding
                                        whether the facility had an intrusion detection system.
                                        However, the facility did have an intrusion detection
                                        system.

                                   •    A facility SCO answered “no” to a question regarding
                                        whether the registry cage was enclosed. However, based
                                        on our observation and discussion with the SCO, the
                                        registry cage was fully enclosed.

                                   Timeliness of FSSs. At 51 percent (24 of 47) of the facilities
                                   reviewed, FSSs were not completed annually as required by
                                   the Administrative Support Manual. (See Appendix B for the
                                   status of FSSs at facilities reviewed.) SCOs complete the
                                   FSSs and enter the results into the facility security database.
                                   SCOs and Postal Service facility managers use FSS results to
                                   assess the security environment at Postal Service facilities.
                                   However, there were no internal or management controls
                                   requiring approval of FSSs to ensure accuracy and timeliness.

                                   According to internal control standards set by GAO, internal
                                   control activities such as approvals, authorizations, and
                                   verifications help ensure that management’s directives are
                                   carried out and actions are taken to address risk.6 When
                                   SCOs do not complete FSSs as required, Postal Service
                                   employees, customers, the mail, and other critical assets are
                                   exposed to increased risk.

    Recommendation                 We recommend the Chief Postal Inspector:

                                   1. Establish and provide consolidated standard operating
                                      procedures and guidance to the Area Security Coordinator,
                                      District Security Control Officers, and facility Security
                                      Control Officers to assist them in performing their duties
                                      and responsibilities consistently and in a timely manner.


6
 Standards for Internal Control in the Federal Government (Report Number GAO/AIMD-00-21.3.1, dated November
1999).




                                                     6
Postal Service Security Controls and                                                 SA-AR-07-002
 Processes for the Capital Metro Area




 Management‘s                     Management agreed with our recommendation and stated the
 Comments                         Chief Postal Inspector will issue official instruction, regulation,
                                  and guidance in the Postal Service’s Administrative Support
                                  Manual. Additionally, the network of security personnel in the
                                  Postal Inspection Service, areas, and districts will reinforce
                                  these procedures to provide guidance that is more consistent.
                                  In a follow-up memorandum dated March 21, 2007,
                                  management stated they would complete corrective actions by
                                  September 30, 2007.

 Evaluation of                    Management’s comments and planned corrective actions are
 Management’s                     responsive to the recommendation and should correct the
 Comments                         issues identified in the finding.

 Recommendation                   We recommend the Vice President, Capital Metro Area, in
                                  consultation with the Inspector in Charge, Charlotte Division,
                                  and the Inspector in Charge, Washington Division:

                                  2. Require area- and district-level personnel to establish and
                                     implement appropriate internal controls, such as an internal
                                     review and approval process, to ensure that security
                                     personnel complete facility security surveys accurately and
                                     in a timely manner.

 Management’s                     Management agreed with our recommendation and stated
 Comments                         they have established requirements for completing FSSs in a
                                  timely manner. All facilities must have a current facility
                                  security survey online in the Facility Security Database by
                                  June 1, 2007. Management has also established additional
                                  procedures for monitoring, reviewing, and reporting the status
                                  of FSSs. The ASC is required to monitor and provide quarterly
                                  reports to each district and conduct security reviews and verify
                                  the accuracy of FSSs. In a follow-up memorandum dated
                                  March 21, 2007, management stated they implemented
                                  corrective actions on August 2, 2006.

 Evaluation of                    Management’s comments and corrective actions taken are
 Management’s                     responsive to the recommendation and should correct the
 Comments                         issues identified in the finding.




                                                  7
Postal Service Security Controls and                                                                   SA-AR-07-002
 Processes for the Capital Metro Area




    Corrective Action on                Management did not always take sufficient corrective action to
    Security Deficiencies               resolve deficiencies identified during FSSs. This occurred
    and Follow-up Reviews               because management did not establish internal controls
                                        requiring formal, written procedures, including timeframes and
                                        follow-up reviews, to address deficiencies. Specifically, SCOs
                                        at 40 percent (19 of 47) of the facilities reviewed did not take
                                        sufficient corrective actions to resolve deficiencies. As a
                                        result, the Postal Service did not fully mitigate identified
                                        security deficiencies, and Postal Service employees and
                                        assets were exposed to increased risk.

                                        For example, at one facility, the SCO identified and reported to
                                        the Facility Service Office (FSO) that the cyclone fence and
                                        five facility doors needed repair. These deficiencies were
                                        initially reported in March 2005. However, as of July 2006, the
                                        FSO had not taken any action and the SCO had not conducted
                                        any follow-up regarding these matters.

                                        At another facility the SCO indicated on the FSS dated
                                        February 22, 2006, that CCTV tapes were not replaced
                                        annually.7 In a previous survey dated June 15, 2004,8 the FSS
                                        had documented the same deficiency. We discussed this
                                        matter with the SCO, who acknowledged that the CCTV tapes
                                        had not been replaced and that he planned to submit an order.

                                        According to GAO internal control standards, monitoring
                                        internal controls should include policies and procedures to
                                        ensure that management resolves findings from reviews.
                                        Managers are to promptly evaluate findings and deficiencies;
                                        determine the proper action; and complete, within established
                                        timeframes, all actions needed to correct the matters brought
                                        to their attention. The resolution process begins when the
                                        results of reviews are reported to management, and is
                                        complete only after management has corrected the
                                        deficiencies, made improvements, or demonstrated that the
                                        findings and recommendations do not warrant management
                                        action.

                                        After FSSs are completed, facility managers and SCOs should
                                        take corrective actions within an established timeframe.
                                        Additionally, formal follow-up should be required to ensure

7
    The Postal Service’s Security Guide FY 2004, stipulates that CCTV tapes are to be replaced after 12 months.
8
    The SCO did not complete an FSS for 2005.




                                                           8
Postal Service Security Controls and                                                                  SA-AR-07-002
 Processes for the Capital Metro Area


                                      management addresses deficiencies.

    Recommendation                    We recommend the Chief Postal Inspector:

                                      3. Establish and implement a formal process for conducting
                                         facility security surveys, including timeframes for
                                         addressing deficiencies and conducting follow-up reviews.

    Management’s                      Management agreed with our recommendation and stated
    Comments                          they would work with inspectors and security personnel in the
                                      areas and districts to ensure the required annual security
                                      surveys are conducted and documented in the Facilities
                                      Security Database, as the existing process dictates.
                                      Additionally, as part of the revised security program, Postal
                                      Inspection Service and Postal Service management will work
                                      together to establish a reasonable timeframe for addressing
                                      deficiencies and conducting follow-up reviews. In a follow-up
                                      memorandum dated March 21, 2007, management stated they
                                      would implement these corrective actions by September 30,
                                      2007.

    Evaluation of                     Management’s comments and planned corrective actions are
    Management’s                      responsive to the recommendation and should correct the
    Comments                          issues identified in the finding.

    Training                          Security personnel did not receive sufficient and consistent
                                      training. This occurred because Postal Inspection Service
                                      management did not establish requirements for mandatory
                                      training for security personnel. As a result, security personnel
                                      were not fully aware of their responsibilities and did not have
                                      the knowledge they needed to perform their duties, and Postal
                                      Service assets were exposed to increased risk.

                                      According to GAO internal control standards, control activities,
                                      such as training, should be aimed at developing and retaining
                                      employees’ skill levels to meet organizational needs.
                                      Sufficient training is essential to assist responsible security
                                      personnel with identifying and mitigating security risks.

                                      Sixty-seven percent (439 of 6410) of the security personnel we
                                      interviewed had not received any SCO-related training.

9
 Of the 43 responsible security officials interviewed who did not have SCO training, 17 were from the Mid-Carolinas,
Greensboro, and Greater South Carolina Districts. These districts were moved from the Eastern Area to the Capital
Metro Area effective April 1, 2006.




                                                         9
Postal Service Security Controls and                                                        SA-AR-07-002
 Processes for the Capital Metro Area


                                       Additionally, 57 percent (32 of 5611) of security personnel
                                       stated they needed additional training to effectively perform
                                       their duties.

                                       Based on the results of our interviews with SCOs, we
                                       determined that SCOs were not always familiar with the
                                       applicable Postal Service security criteria, such as Postal
                                       Service Handbook RE-5, Building and Site Security
                                       Requirements.

                                       One ASC stated that there was no formal training for the ASC
                                       position. He stated that he generally relied on his military
                                       experience to perform his security duties and responsibilities.
                                       DSCOs and SCOs also stated they were not fully aware of
                                       their duties and responsibilities and wanted more training to
                                       effectively conduct their security work.

                                       The Postal Service offers the following training to Postal
                                       Service officials responsible for security:

                                       E-learning Physical Security Module – This online course on
                                       physical security provides an overview of the responsibilities of
                                       the SCOs. The course can be completed in about 4.5 hours.

                                       SCO Training, Phases I through III – This is classroom training
                                       that covers SCO duties and responsibilities and other security
                                       issues. The phases are specific to the types of facilities and
                                       the number of employees located at each facility. Specifically:

                                       •    Phase I is available to SCOs and security personnel at
                                            core facilities, including headquarters, area offices, district
                                            offices, processing and distribution centers, and bulk mail
                                            centers.

                                       •    Phase II is available to SCOs and security personnel at
                                            facilities with 26 or more employees.

                                       •    Phase III is available to SCOs and security personnel at
                                            facilities with less than 26 employees.




10
     This figure represents the DSCOs, SCOs, and facility and plant managers interviewed.
11
     This figure represents the DSCOs and SCOs interviewed.




                                                          10
Postal Service Security Controls and                                                  SA-AR-07-002
 Processes for the Capital Metro Area



                                  Although security training was available, Postal Service
                                  management did not require responsible security personnel at
                                  the area-, district-, and installation-levels to take the training.

 Recommendation                   We recommend the Chief Postal Inspector:

                                  4. Establish requirements for mandatory security training,
                                     including periodic refresher training, for responsible
                                     security personnel at the area-, district- and facility-levels.

 Management‘s                     Management agreed with our recommendation and stated
 Comments                         they will establish requirements for annual training and update
                                  policy documents (such as the Postal Service’s Administrative
                                  Support Manual) to reflect this change. Additionally,
                                  management stated they would include requirements for
                                  annual training as position requirements for postal inspectors
                                  and area and district security personnel. In a follow-up
                                  memorandum dated March 21, 2007, management stated they
                                  would complete corrective actions by September 30, 2007.

 Evaluation of                    Management’s comments and planned corrective actions are
 Management’s                     responsive to recommendation 4 and should correct the issues
 Comments                         identified in the finding.

 Performance Measures             Postal Service management did not effectively assess security
                                  operations to identify areas for improvement. This occurred
                                  because security personnel did not have appropriate
                                  performance measures for physical security. Without
                                  appropriate performance measures, Postal Service
                                  management does not have reasonable assurance that its
                                  physical security goals are met to ensure the safeguarding of
                                  Postal Service employees, customers, the mail, and other
                                  critical assets.

                                  Specifically, none of the DSCOs and SCOs interviewed had
                                  security-related performance measures. For example, they
                                  did not have any performance measures to assess whether
                                  they had:

                                  •     Completed FSSs annually.

                                  •     Taken corrective actions to resolve deficiencies identified
                                        with security assessment tools.




                                                   11
Postal Service Security Controls and                                                 SA-AR-07-002
 Processes for the Capital Metro Area



                                  •     Obtained the necessary security training.

                                  •     Provided security awareness training to employees.

                                  However, the ASC of the Capital Metro Area stated he had
                                  performance measures to assess his:

                                  •     Completion of FSSs at all 15 major processing and
                                        distribution centers.

                                  •     Completion of 10 to 15 ASAP reviews for each district.

                                  •     Conduct of Phase I training for SCOs.

                                  Performance measures would help security officials address
                                  their responsibilities in an operations-driven environment,
                                  improve management’s ability to assess the performance of its
                                  security operations, and identify areas for improvement. In
                                  addition, establishing appropriate performance measures and
                                  indicators helps ensure that employees accomplish
                                  management’s directives and organizational objectives.

 Recommendation                   We recommend the Vice President, Capital Metro Area, in
                                  consultation with the Inspector in Charge, Charlotte Division,
                                  and the Inspector in Charge, Washington Division:

                                  5. Develop appropriate performance measures for physical
                                     security to assess the achievement of security goals and
                                     incorporate them into performance plans for area-, district-,
                                     and field-level security personnel.

 Management’s                     Management partially agreed with our recommendation and
 Comments                         stated they recognized the need for program evaluation and
                                  have established program standards to address performance.
                                  Management stated they have utilized the ASAP to review
                                  facilities; established the goal to have all facilities on-line and
                                  in compliance with the Facility Security Survey by June 1,
                                  2007; and conducted security reviews at all 26 mail processing
                                  facilities over the past year. Management stated they
                                  implemented these corrective actions on August 2, 2006.

                                  However, management stated the Postal Service’s current Pay
                                  for Performance structure only permits security performance




                                                   12
Postal Service Security Controls and                                               SA-AR-07-002
 Processes for the Capital Metro Area


                                  measures for the ASC and not for ad hoc security positions at
                                  the district- and field-levels. The Postal Service’s current Pay
                                  for Performance structure limits managers in assigning goals
                                  and allows only three objectives as performance measures per
                                  position. Because many of the security positions at the
                                  district- and field-levels are ad hoc, goals and objectives
                                  assigned focus on primary duties and not ad hoc duties related
                                  to security. Until the Postal Service reviews and changes this
                                  process, managers are limited as to what kind of goals they
                                  can assign their employees regarding security ad hoc
                                  responsibilities.

 Evaluation of                    Management’s comments and corrective actions taken are
 Management’s                     partially responsive to recommendation 5. We acknowledge
 Comments                         there may be limits to the type of goals and the number of
                                  objectives allowed in the Postal Service’s current Pay for
                                  Performance structure. However, we believe management
                                  could make the necessary adjustments to their Pay for
                                  Performance system to allow for the establishment of security-
                                  related performance measures for security personnel. We do
                                  not plan to pursue this recommendation through the formal
                                  audit resolution process based on revisions the Postal Service
                                  is currently making to the field security program. We believe
                                  these changes should allow for improved internal controls.




                                                13
Postal Service Security Controls and                                                     SA-AR-07-002
 Processes for the Capital Metro Area



      APPENDIX A. CAPITAL METRO AREA FACILITIES REVIEWED
                 District                  Facility Name                   City          State

       1   Capital                V Street Facility                   Washington, D.C.
       2   Capital                Curseen-Morris P&DC                 Washington, D.C.
       3   Capital                Customs House Station               Washington, D.C.
       4   Capital                River Terrace Carrier               Washington, D.C.
       5   Capital                National Capitol                    Washington, D.C.
       6   Capital                Farragut Station                    Washington, D.C.
       7   Capital                Ben Franklin Station                Washington, D.C.
       8   Capital                Carrier Annex                       Silver Spring      MD
       9   Capital                Southern Maryland P&DC/VMF          Capital Heights    MD
      10   Capital                Oxon Hill Branch                    Oxon Hill          MD
      11   Capital                Suitland Branch                     Suitland           MD
      12   Capital                Bowie Main Office                   Bowie              MD
      13   Capital                Aspen Hill Retail                   Silver Spring      MD
      14   Capital                Colesville Station                  Silver Spring      MD
      15   Capital                Bethesda                            Bethesda           MD
      16   Northern Virginia      Franconia Station                   Alexandria         VA
      17   Northern Virginia      Alexandria Trade Center Station     Alexandria         VA
      18   Northern Virginia      Arlington Temporary Carrier Annex   Arlington          VA
      19   Northern Virginia      Arlington North Station             Arlington          VA
      20   Richmond               East End Station                    Richmond           VA
      21   Richmond               West End                            Richmond           VA
      22   Richmond               Saunders Station                    Richmond           VA
      23   Richmond               Richmond P&DC                       Richmond           VA
      24   Richmond               Norfolk CFS                         Norfolk            VA
      25   Richmond               Norfolk P&DC/Hampton Roads VMF      Norfolk            VA
      26   Richmond               Lafayette Station                   Norfolk            VA
      27   Richmond               Newport News                        Newport News       VA
      28   Richmond               Acredale Carrier Annex              Virginia Beach     VA
      29   Greater S. Carolina    Gaffney - Main Office               Gaffney            SC
      30   Greater S. Carolina    East Bay                            Charleston         SC
      31   Greater S. Carolina    Pinehaven                           North Charleston   SC
      32   Greater S. Carolina    Charleston P&DF                     Charleston         SC
      33   Greater S. Carolina    Columbia Main Office                Columbia           SC
      34   Greater S. Carolina    Edgewood Station                    Columbia           SC
      35   Greater S. Carolina    Sumter Main Office                  Sumter             SC
      36   Greater S. Carolina    Spartanburg Main Office             Spartanburg        SC
      37   Mid-Carolinas          Derita Branch                       Charlotte          NC
      38   Mid-Carolinas          Charlotte - CFS Annex               Charlotte          NC
      39   Mid-Carolinas          Charlotte P&DC                      Charlotte          NC
      40   Greensboro             Capitol Station                     Raleigh            NC
      41   Greensboro             Raleigh VMF                         Raleigh            NC
      42   Greensboro             West Durham Station                 Durham             NC
      43   Greensboro             Greensboro BMC                      Greensboro         NC
      44   Greensboro             Greensboro DDC/VMF                  Greensboro         NC
      45   Greensboro             Century Station                     Raleigh            NC
      46   Greensboro             Durham Main Station                 Durham             NC
      47   Greensboro             Spring Valley Station               Greensboro         NC




                                                  14
Postal Service Security Controls and                           SA-AR-07-002
 Processes for the Capital Metro Area




      Legend

      P&DC              Processing and Distribution Center
      VMF               Vehicle Maintenance Facility
      CFS               Computerized Forwarding System
      P&DF              Processing and Distribution Facility
      BMC               Bulk Mail Center
      DDC               Delivery Distribution Center




                                               15
Postal Service Security Controls and                                                 SA-AR-07-002
 Processes for the Capital Metro Area



         APPENDIX B. STATUS OF FACILITY SECURITY SURVEYS

                                                                              Facility
                                                                             Security
                                                                              Survey
                                                                            Completed
                     District                    Facility Name               Annually

          1   Capital                   V Street Facility                      No
          2   Capital                   Washington P&DC                        No
          3   Capital                   Customs House Station                  Yes
          4   Capital                   River Terrace Carrier                  No
          5   Capital                   National Capitol                       Yes
          6   Capital                   Farragut Station                       No
          7   Capital                   Ben Franklin Station                   No
          8   Capital                   Carrier Annex                          No
          9   Capital                   Southern Maryland P&DC                 No
         10   Capital                   Oxon Hill Station                      No
         11   Capital                   Suitland Branch                        No
         12   Capital                   Bowie Main Office                      No
         13   Capital                   Aspen Hill Retail                      No
         14   Capital                   Colesville Station                     No
         15   Capital                   Bethesda Main Office                   No

         16   Northern Virginia         Franconia Station                      Yes
         17   Northern Virginia         Alexandria Trade Center Station        Yes
         18   Northern Virginia         Arlington Temporary Carrier Annex      Yes
         19   Northern Virginia         Arlington North Station                Yes

         20   Richmond                  East End Station                       Yes
         21   Richmond                  West End                               Yes
         22   Richmond                  Saunders Station                       No
         23   Richmond                  Richmond P&DC                          No
         24   Richmond                  Norfolk CFS                            No
         25   Richmond                  Lafayette Station                      Yes
         26   Richmond                  Newport News                           No
         27   Richmond                  Acredale Carrier Annex                 No
         28   Richmond                  Norfolk P&DC                           No

         29   Greater S. Carolina       Gaffney Main Office                    Yes
         30   Greater S. Carolina       East Bay                               Yes
         31   Greater S. Carolina       Pinehaven                              Yes
         32   Greater S. Carolina       Charleston P&DF                        Yes
         33   Greater S. Carolina       Columbia Main Office                   Yes
         34   Greater S. Carolina       Edgewood Station                       Yes
         35   Greater S. Carolina       Sumter Main Office                     Yes
         36   Greater S. Carolina       Spartanburg Main Office                Yes

         37   Mid-Carolinas             Derita Branch                          No
         38   Mid-Carolinas             Charlotte – CFS Annex                  No




                                                   16
Postal Service Security Controls and                                     SA-AR-07-002
 Processes for the Capital Metro Area


                                                                  Facility
                                                                 Security
                                                                  Survey
                                                                Completed
                     District                   Facility Name    Annually
         39   Mid-Carolinas             Charlotte P&DC             No

         40   Greensboro                Capitol Station            Yes
         41   Greensboro                Raleigh VMF                Yes
         42   Greensboro                West Durham Station        No
         43   Greensboro                Greensboro BMC             Yes
         44   Greensboro                Greensboro DDC/VMF         Yes
         45   Greensboro                Century Station            No
         46   Greensboro                Durham Main Station        Yes
         47   Greensboro                Spring Valley Station      Yes



        Legend

        P&DC            Processing and Distribution Center
        VMF             Vehicle Maintenance Facility
        CFS             Computerized Forwarding System
        P&DF            Processing and Distribution Facility
        BMC             Bulk Mail Center
        DDC             Delivery Distribution Center




                                                   17
Postal Service Security Controls and                   SA-AR-07-002
 Processes for the Capital Metro Area




                   APPENDIX C. MANAGEMENT’S COMMENTS




                                        18
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        19
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        20
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        21
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        22
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        23
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        24
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        25
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        26
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        27
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        28
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        29
Postal Service Security Controls and         SA-AR-07-002
 Processes for the Capital Metro Area




                                        30
